Report No. D-2011-045                      February 25, 2011




    American Recovery and Reinvestment Act Project-
    Solar and Lighting at Naval Station Norfolk, Virginia
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/recovery/index.html or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DUSD (I&E)                    Deputy Under Secretary of Defense
                               (Installations and Environment)
ECIP                          Energy Conservation Investment Program
ELCCA                         Energy Life-Cycle-Cost Analysis
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
LANT                          Atlantic
MIDLANT                       Mid-Atlantic
MILCON                        Military Construction
NAVFAC                        Naval Facilities and Engineering Command
NEPA                          National Environmental Policy Act
OMB                           Office of Management and Budget
QMAD                          Quantitative Methods and Analysis Division
SIR                           Savings-to-Investment Ratio
TAFS                          Treasury Appropriation Fund Symbol
                                INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704


                                                                        February 25,2011



MEMORANDUM FOR DEPUTY UNDER SECRETARY OF DEFENSE
                 (INSTALLATIONS AND ENVIRONMENT)
               NA V AL INSPECTOR GENERAL
               COMMANDER, NAV AL FACILITIES ENGINEERING
                 COMMAND


SUBJECT: American Recovery and Reinvestment Act Project - Solar and Lighting at
         Naval Station Norfolk, Virginia (Report No. D-2011-045)

We are providing this repOli for review and comment. Navy personnel did not ensure
that the Recovery Act project, at Naval Station Norfolk, Virginia, was adequately
planned and supported. We performed this audit in response to the requirements of
Public Law 111 -5, "American Recovery and Reinvestment Act of2009," February 17,
2009 (Recovery Act). We considered management comments on a draft of this report
when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The
Department of Navy comments were responsive. However, the Deputy Under Secretary
of Defense (Installations and Environment) comments were not responsive to
Recommendations 2.a. and 2.b. Therefore, we request additional comments on
Recommendations 2.a. and 2.b. by March 28,2010.

If possible, send a .pdf file containing your comments to audyorktown@dodig.mil.
Copies of your comments must have the actual signature of the authorizing official for
your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you alTange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Michael A. Joseph at (757) 872-4698.



                                            \L.J-J. (\. J .. \ ,
                                         \ ~ Alice F. Carey
                                          \) Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2011-045 (Project No. D2009-D000LF-0245.007)                      February 25, 2011

               Results in Brief: American Recovery and
               Reinvestment Act Project – Solar and
               Lighting at Naval Station Norfolk, Virginia
                                                        Recovery Act requirements, and the contractor
What We Did                                             reported information required by the Recovery
Our overall objective was to evaluate DoD’s             Act.
implementation of “American Recovery and
Reinvestment Act of 2009,” February 17, 2009
                                                        What We Recommend
                                                        We recommend that the Commander, NAVFAC
(Recovery Act). Specifically, we reviewed the
                                                        prepare supporting documentation to re-validate
planning, funding, initial project execution, and
                                                        the discounted payback period and SIR on the
tracking and reporting phases of Recovery Act
                                                        Energy Life-Cycle-Cost Analysis summary. If the
Project P0764, “Solar and Lighting,” at Naval
                                                        calculations resulting from the re-validation effort
Station Norfolk, Virginia, to determine whether
                                                        do not meet the criteria identified in the Recovery
the Navy complied with the Act’s requirements,
                                                        Act, DoD Energy Conservation Investment
Office of Management and Budget (OMB)
                                                        Program Plan, and DoD Energy Manager’s
Memorandum M-09-10, “Initial Implementing
                                                        Handbook, we recommend that the Deputy Under
Guidance for the American Recovery and
                                                        Secretary of Defense (Installations and
Reinvestment Act of 2009,” February 18, 2009,
                                                        Environment) cancel the project and develop plans
and subsequent related guidance.
                                                        to use the funds resulting from the project’s
What We Found                                           termination in accordance with DoD guidance.
We determined that Naval Facilities                     Additionally, NAVFAC should perform a National
Engineering Command (NAVFAC) Mid-                       Environmental Policy Act study on the project.
Atlantic (MIDLANT) personnel did not ensure
that the Recovery Act project, at Naval Station
                                                        Management Comments and
Norfolk, Virginia, was adequately planned and           Our Response
supported. NAVFAC MIDLANT personnel                     The Department of Navy provided a re-
could not provide documentation to support the          validated simple payback and SIR, which met
simple payback period and savings-to-                   the intent of recommendations we made to
investment ratio (SIR) calculations on the DD           Commander, NAVFAC. The Deputy Under
Form 1391, “Military Construction Project               Secretary of Defense (Installations and
Data,” and did not adequately consider the              Environment) did not agree to cancel the project
environmental impact of the Recovery Act                because he stated the project is in the best
project before starting contracting actions.            interest of the Department. The re-validated
Without documented support, DoD cannot                  payback period of 447.64 years and SIR of .03
ensure whether the calculations were correct,           demonstrate that the Recovery Act project is
the discounted payback period and SIR met the           very cost-ineffective and is contrary to the intent
minimum DoD criteria, or that the Navy                  of Federal regulation, DoD guidance, and the
appropriately selected the project for Recovery         Recovery Act. Therefore, we request the
Act funding. Also, the effects of the Recovery          Deputy Under Secretary of Defense
Act project on the environment are unknown.             (Installations and Environment) reconsider their
                                                        position on the recommendation and request
NAVFAC Atlantic personnel received Recovery             additional comments by March 28, 2011.
Act funds consistent with OMB guidance,                 Please see the recommendations table on the
contracting personnel ensured that contracting          back of this page.
actions for the Recovery Act project met

                                                    i
Report No. D-2011-045 (Project No. D2009-D000LF-0245.007)              February 25, 2011

Recommendations Table

Management                      Recommendations             No Additional Comments
                                Requiring Comment           Required
Deputy Under Secretary of       2.a, 2.b
Defense (Installations and
Environment)
Commander, Naval Facilities                                 1.a, 1.b
Engineering Command

Please provide comments by March 28, 2011.




                                             ii
Table of Contents

Introduction                                                     1

      Objective                                                  1
      Background                                                 1
      Review of Internal Controls                                2

Audit Results                                                    3

      Recovery Act Project Not Properly Planned and Supported    3
      Recovery Act Funds Distributed Timely                      4
      Initial Project Execution Adequate                         5
      Contractor Reported Required Information                   5
      Conclusion                                                 6
      Recommendations, Management Comments, and Our Response     6

Appendix. Scope and Methodology                                  9

      Use of Computer-Processed Data                             9
      Use of Technical Assistance                               10
      Prior Coverage                                            10

Management Comments

      Under Secretary of Defense (Comptroller)                  11
Introduction
Objective
Our overall objective was to evaluate DoD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009,” February 17, 2009 (Recovery Act).
Specifically, we reviewed the planning, funding, initial project execution, and tracking
and reporting phases of Recovery Act Project P0764, “Solar and Lighting,” (the
Recovery Act project) at Naval Station Norfolk, Virginia, to determine whether Naval
Facilities Engineering Command (NAVFAC) Mid-Atlantic (MIDLANT) and Atlantic
(LANT) personnel complied with the Act’s requirements, Office of Management and
Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009, and subsequent
related guidance. See the appendix for a discussion of our scope and methodology.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DoD received approximately $7.16 billion 1 in Recovery Act funds for projects that
support the Act’s purposes. In March 2009, DoD released an expenditure plan for the
Recovery Act, which listed DoD projects that will receive Recovery Act funds. OMB
Memorandum M-09-10 required the DoD to develop program plans. Included among
those programs was the Energy Conservation Investment Program (ECIP).

Energy Conservation Investment Program
The “American Recovery and Reinvestment Act of 2009, Department of Defense Energy
Conservation Investment Program Plan,” May 15, 2009, (updated June 2010), identifies
projects valued at $120 million and funded through the “Military Construction, Defense-
Wide” (MILCON) appropriation. DoD personnel allocated $29.5 million for Navy
Recovery Act ECIP projects. The Deputy Under Secretary of Defense (Installations and
Environment) (DUSD (I&E)) centrally controls ECIP funding allocation by Service on a



1
  DoD originally received about $7.42 billion; however, Public Law 111-226, Title III, “Rescissions,”
rescinded $260.5 million on August 10, 2010. The $7.16 billion does not include $4.6 billion for the U.S.
Army Corps of Engineers Recovery Act civil works projects.


                                                    1
project-by-project basis. Of the $29.5 million, Navy personnel allocated $1.02 million in
Recovery Act funds to the Recovery Act project.

The DoD Energy Managers Handbook defines a savings-to-investment ratio (SIR) as a
measure of a project’s economic performance. The SIR, a benefit-to-cost ratio in which
the benefits are primarily savings, expresses the relationship between the present value of
the savings over the study period to the present value of the investment costs. The SIR is
a useful means of ranking independent projects to guide allocations for limited
investment funding. According to the DoD Energy Managers Handbook, if a project’s
SIR is 1.0 or higher, the project is cost-effective.

The DoD ECIP Plan stated that the program historically averages more than two dollars
in life-cycle savings for every dollar invested. The Office of the Assistant Secretary of
Defense (Production and Logistics), “Energy Conservation Investment Program
Guidance,” March 17, 1993, states, “Projects must have a SIR greater than 1.25 and a
discounted 2 payback period of 10 years or less.”

Naval Facilities Engineering Command
NAVFAC MIDLANT and LANT supported the Navy by providing project management
and contracting services. These services included awarding contracts for the Recovery
Act project and assigning project managers to oversee the contracted work. NAVFAC
Engineering Service Center develops standard energy business practices and provides
program planning, execution, reporting, and financial management support to NAVFAC.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. We identified an internal control
weakness in the administration of the Recovery Act project as defined by DoD
Instruction 5010.40. Specifically, NAVFAC personnel did not provide adequate
oversight over the planning efforts for the project. We discuss these issues in detail in the
Audit Results section of this report. We will provide a copy of the report to the senior
official responsible for internal controls at the Office of the DUSD (I&E) and NAVFAC.




2
 Similar to simple payback in expressing results in time to recover investment costs; however, savings are
discounted to their present value based on the discount rate.


                                                    2
Audit Results
NAVFAC MIDLANT personnel did not ensure that the Recovery Act project was
adequately planned and supported. NAVFAC MIDLANT personnel could not provide
documentation to support the simple payback period 3 and SIR calculations on the
DD Form 1391, “Military Construction Project Data.” Additionally, NAVFAC
MIDLANT personnel did not adequately consider the environmental impact of the
Recovery Act project before starting contracting actions. Without documented support,
DoD cannot ensure whether the calculations were correct, the discounted payback period
and SIR met the minimum DoD criteria, or that the Navy appropriately selected the
project for Recovery Act funding. Also, the effects of the Recovery Act project on the
environment are unknown. NAVFAC LANT personnel received Recovery Act funds
consistent with OMB guidance, and contracting personnel ensured that contracting
actions for the Recovery Act project met Recovery Act requirements and the contractor
reported information required by the Recovery Act.

Recovery Act Project Not Properly Planned and
Supported
NAVFAC MIDLANT personnel could not provide documentation to support the simple
payback period or the SIR calculations on the DD Form 1391 and did not adequately
consider the environmental impact of the project before starting contracting actions.

No Supporting Documentation for Simple Payback Period
and SIR
NAVFAC MIDLANT personnel provided the DD Form 1391, March 20, 2009, but could
not provide supporting documentation for the potential investment costs and energy and
non-energy savings. Naval Facilities Engineering Service Center personnel provided a
copy of the Energy Life-Cycle-Cost Analysis (ELCCA) summary, March 20, 2009, to
support the simple payback period of 9.30 years and the SIR of 1.62. The project’s
simple payback period and SIR are predicated on a mathematical formula which includes
factors such as investment costs and energy and non-energy savings or costs. However,
NAVFAC MIDLANT personnel did not provide an ELCCA summary with supporting
documentation for its investment costs ($967,000), energy savings ($84.00 per mega-watt
hour of electricity and 850 mega-watt hours of annual utility reduction), and non-energy
savings ($38,560).

NAVFAC MIDLANT personnel stated they provided no support for the calculations
because the Energy Manager who developed the DD Form 1391 and the ELCCA
summary left the command, and NAVFAC MIDLANT personnel did not ensure the
transfer of project files and supporting documentation to the new Energy Manager.
According to Office of the Assistant Secretary of Defense (Production and Logistics)
“Energy Conservation Investment Program Guidance,” March 17, 1993, project


3
    The amount of time it will take to recover the initial investment in energy savings.


                                                        3
submittals must include copies of the life-cycle analyses with supporting documentation
showing basic assumptions made to arrive at projected savings. NAVFAC P-442,
“Economic Analysis Handbook,” October 1993, and NAVFAC “Energy Conservation
Investment Program (ECIP) Guidance,” April 20, 1993, also requires the Navy to attach
back-up data substantiating investment costs and energy and non-energy savings or costs.
Without documentation to support how NAVFAC MIDLANT personnel generated the
investment costs and energy and non-
energy savings, we could not validate the      Without documentation to support
accuracy of the simple payback period          how NAVFAC MIDLANT personnel
and SIR calculations for the Recovery          generated the investment costs and
Act project and determine whether Navy         energy and non-energy savings, we
personnel appropriately selected the           could not validate the accuracy of the
project for Recovery Act funding.              simple payback period and SIR
Personnel at NAVFAC need to prepare            calculations for the Recovery Act
supporting documentation to re-validate        project and determine whether Navy
the discounted payback period and SIR          personnel appropriately selected the
of the project. Additionally, if the           project for Recovery Act funding.
Recovery Act project does not meet the
minimum discounted payback period and SIR identified in the Recovery Act, DoD
Energy Conservation Investment Program Plan, and DoD Energy Manager’s Handbook,
the DUSD (I&E) should cancel the Recovery Act project and apply the remaining funds 4
to other viable Recovery Act projects.

No National Environmental Policy Act Study or Categorical
Exclusion
NAVFAC MIDLANT personnel did not adequately consider the environmental impact of
the Recovery Act project. This occurred because NAVFAC MIDLANT did not perform a
National Environmental Policy Act (NEPA) study or obtain a categorical exclusion before
starting contracting actions. According to a November 5, 2010, Council on
Environmental Quality report to Congress on the status and progress of NEPA reviews for
Recovery Act-funded projects and activities, DoD intends to give the Recovery Act
project at Naval Station Norfolk a categorical exclusion. However, until NAVFAC
MIDLANT personnel complete a NEPA study or obtain a categorical exclusion, the
effects of the Recovery Act project on the environment are unknown.

Recovery Act Funds Distributed Timely
The Office of the Under Secretary of Defense (Comptroller) personnel distributed
$1.022 million in Recovery Act funds to NAVFAC Headquarters for the Recovery Act
project in a timely manner. Funding documents properly cited Treasury Appropriation
Fund Symbol (TAFS) 97 0501, “Military Construction-Recovery Act, Defense-Wide,”
and the amount of funds NAVFAC Headquarters received were consistent with the
project estimate of $1.022 million as stated in the DoD ECIP Plan. Funding documents
showed Comptroller personnel transferred the Recovery Act funds to NAVFAC


4
    The amount of funds is undeterminable until management takes action on recommendations 2.a. and 2.b.


                                                     4
Headquarters on March 31, 2009. NAVFAC Headquarters contracting personnel
obligated $905,847 to the project, and NAVFAC LANT contracting personnel awarded
two task orders under contract N62470-06-D-6007 on June 29, 2009, resulting in
$116,153 ($1.022 million - $905,847) in potential bid savings.

Initial Project Execution Adequate
NAVFAC LANT contracting personnel adequately executed the project. Contracting
personnel competitively solicited and awarded the contract with full transparency, and the
contract contained the required Federal Acquisition Regulation (FAR) clauses.

Contracting personnel at NAVFAC LANT awarded the Recovery Act project on two task
orders from a multiple award contract. Task Order 0009, valued at $24,856, consisted of
Phase I work for site survey and building selection and was awarded on a cost-plus award
fee basis. Task Order 0012, valued at $880,991, consisted of Phase II work for design-
build construction of selected buildings. NAVFAC LANT contracting personnel
awarded the task order on a cost-plus award fee basis, and the award will convert to a
firm-fixed price when the Recovery Act project’s design is 35 percent complete.
NAVFAC LANT contracting personnel included in the contract files a justification
statement for the deviation from a firm-fixed award. Additionally, contracting personnel
at NAVFAC LANT awarded the original contract under full and open competition in
August 2006.

Contracting personnel properly recorded contract actions to facilitate full transparency.
OMB Memorandum M-09-15, “Updated Implementing Guidance for the American
Recovery and Reinvestment Act of 2009,” April 3, 2009, describes requirements for
reporting Recovery Act-funded actions in the Federal Procurement Data System and
publicizing actions on the Federal Business Opportunities (FBO) Web site. NAVFAC
LANT contracting personnel properly reported the pre-solicitation notices, identified the
project as “Recovery,” and included the appropriate “Information Purposes Only”
statement in the synopsis for both task orders. Contracting personnel also properly
reported both award notices, identified the project as “Recovery,” and included the
rationale for awarding the contract at other than a fixed price in the synopses reported on
the FBO Web site.

Finally, contracting personnel at NAVFAC LANT proactively issued a modification to
Contract N62470-06-D-6007 to include FAR clauses required for the Recovery Act. The
modification stated that Recovery Act clauses applied to the entire contract and any task
orders issued using Recovery Act funding. The modification applied to task orders 0009
and 0012 of the Recovery Act project.

Contractor Reported Required Information
The contractor, Atlantic Contingency Constructors, LLC, reported the recipient
information required by the Recovery Act. The contractor reported the number of jobs, a
description of quarterly project activities, and the total award dollar value for each of the
task order awards to www.recovery.gov as required by FAR 52.204-11.



                                              5
Conclusion
NAVFAC MIDLANT personnel did not adequately support the Recovery Act project to
ensure DoD’s appropriate use of Recovery Act funds. Without documented support for
the potential investment costs and energy and non-energy savings on the ELCCA, DoD
cannot ensure whether the calculations were correct, and whether the discounted payback
period and SIR met the minimum DoD criteria or that Navy personnel appropriately
selected the project for Recovery Act funding. Additionally, personnel at NAVFAC
MIDLANT did not adequately consider the environmental impact of the Recovery Act
project and, as a result, the project’s effects on the environment are unknown. NAVFAC
should re-validate the project and if the project doesn’t meet the minimum discounted
payback period and SIR identified in Recovery Act and DoD guidance, the DUSD (I&E)
should cancel the project and apply the remaining funds to other viable Recovery Act
projects.

NAVFAC LANT personnel received Recovery Act funds for the project in a timely
manner, and the funding authorization documents identified a Recovery Act designation.
Additionally, NAVFAC LANT contracting personnel ensured that contracting actions for
the project met Recovery Act requirements; and the contractor reported the number of
jobs created, the total award, and funds invoiced and received.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Commander, Naval Facilities Engineering Command:

       a. Prepare supporting documentation to re-validate the discounted payback
          period and SIR on the Energy Life-Cycle-Cost Analysis summary, and

       b. Conduct a National Environmental Policy Act study or prepare a
          categorical exclusion for the project.

Department of Navy Comments
The Director, Resource Issues, Office of the Under Secretary of Defense (Comptroller),
provided comments on behalf of the Department of the Navy. The Navy agreed with
Recommendation 1.a. and updated the simple payback period and SIR on the Energy
Life-Cycle-Cost Analysis summary. The re-validation effort resulted in a simple payback
period of 447.64 years and a SIR of 0.03.

The Navy also agreed with Recommendation 1.b. and stated that NAVFAC MIDLANT
was preparing the required NEPA by the end of November 2010 and anticipating the
Recovery Act project would receive a categorical exclusion based on similar projects in
the geographic area.




                                            6
Our Response
Although the Navy re-validated the simple payback period instead of a discounted
payback period, we consider the comments responsive to the intent of
Recommendation 1.a. We also consider the Navy’s comments responsive to
Recommendation 1.b. NAVFAC MIDLANT personnel stated that they submitted the
NEPA package to the State Historic Preservation Office for approval and as of
January 20, 2011, the approval is still pending. No further comments are required.

2. We recommend that the Deputy Under Secretary of Defense (Installations and
   Environment):

       a. Cancel the project if the calculations resulting from the re-validation
          effort do not meet the criteria identified in the Recovery Act, DoD Energy
          Conservation Investment Program Plan, and DoD Energy Manager’s
          Handbook, and

       b. Develop plans to use the funds resulting from the bid-savings and the
          project’s termination in accordance with Under Secretary of Defense
          (Comptroller)/Chief Financial Officer memorandum, “Project Cost
          Variations During Execution of American Recovery and Reinvestment
          Act Expenditure Plans for Infrastructure Investments,” May 7, 2009, and
          “Revision to Policy Regarding Project Cost Variations during Execution
          of American Recovery and Reinvestment Act Expenditure Plans for
          Infrastructure Investments,” January 11, 2010.

Deputy Under Secretary of Defense (Installations and
Environment) Comments
The Director, Resource Issues, Office of the Under Secretary of Defense (Comptroller),
provided comments on behalf of the Office of the DUSD (I&E). The Director, Facilities
Energy, Office of the DUSD (I&E), disagreed with Recommendation 2.a. and indicated
that proceeding with the project was in the best interests of the Department and consistent
with the intentions of the Recovery Act ECIP plan. The Director, Facilities Energy, also
stated that DoD Instruction 4170.11, November 22, 2005, and December 11, 2009, allow
a portion of the ECIP program to be used for renewable energy projects below the SIR or
payback period thresholds.

The Director, Facilities Energy, partially agreed with Recommendation 2.b. and stated
that although they were not planning to direct the Navy to terminate the project,
DUSD (I&E) personnel were executing funds derived from bid savings as identified.

Our Response
The comments are not responsive to Recommendation 2.a. The DoD ECIP Plan indicates
that ECIP projects are focused on improving energy efficiency of existing DoD facilities
and creating new energy generation sources on military installations in a cost-effective
manner.



                                            7
Although we support the use of renewable energy projects and acknowledge that DoD
Instruction 4170.11 allows for executing projects below the SIR and payback period
thresholds, DUSD (I&E)’s execution of the Recovery Project is not consistent with
Federal and Recovery Act guidelines. The “Guidance on Life-Cycle Cost Analysis
Required by Executive Order 13123,” April 2005, states that no single energy
conservation measure should be significantly cost-ineffective. Additionally, Title 10,
Code of Federal Regulations, Part 436, and the DoD Energy Manager’s Handbook state
that projects are cost-effective when the SIR is estimated to be greater than one. The
results of the Department of Navy’s re-validation of the Recovery Act project, which
determined a payback period of 447.64 years and a SIR of .03, demonstrated that the
Recovery Act project is very cost-ineffective and contrary to the intent of Federal
regulation, DoD guidance, and the Recovery Act’s requirement for prudent use of funds.
The SIR is a useful means of ranking independent projects and guiding allocations of
limited investment funding. Adequate planning of the Recovery Act project would have
ensured that officials selecting projects had information necessary to select the most cost-
effective projects that met Federal and DoD requirements, and the intentions of the
Recovery Act. We request the Office of the DUSD (I&E) reconsider its position on the
recommendation and provide additional comments in response to the final report.

Although the Director, Facilities Energy, partially agreed, we consider his comments not
responsive to Recommendation 2.b. Terminating the Recovery Act project will result in
funds that DoD can apply to other more cost-effective DoD Recovery Act ECIP projects.
In response to the final report, we request the Office of the DUSD (I&E) provide
additional comments on the recommendation and potential monetary benefits after
reconsidering its position on Recommendation 2.a.




                                             8
Appendix. Scope and Methodology
We conducted this audit from June 2009 through October 2010 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

The overall objective was to evaluate DoD’s implementation of plans for the Recovery
Act. To accomplish our objective, we audited the planning, funding, initial project
execution, and tracking and reporting of the Recovery Act project at Naval Station
Norfolk, Virginia, valued at $1.022 million. Specifically we determined whether:

   •   the selected project was adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
   •   funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding);
   •   contracts awarded were transparent, competed, and contained Federal Acquisition
       Regulation clauses required by the Recovery Act (Initial Project Execution); and
   •   recipients’ use of funds was transparent to the public, and the benefits of the funds
       were clearly, accurately, and timely reported (Reporting).

We interviewed DUSD (I&E) officials, NAVFAC MIDLANT project managers and
engineers, NAVFAC LANT contract specialists, and Naval Facilities Engineering
Service Center personnel. We reviewed the project files for requirements, justifications,
and funding documents. Specifically we reviewed the DD Form 1391, the ELCCA
summary, funding authorization documents, and contract documentation for task order
numbers 0009 and 0012 under contract number N62470-06-D-6007. We reviewed
Federal, DoD, and Navy guidance. Although we determined whether the contractor
reported in accordance with FAR 52.204-11, we did not validate the data reported by the
contractor to the www.Recovery.gov Web site at this time. We plan to address the
adequacy of recipient reporting in a future DoD Office of the Inspector General report.

The DoD Office of the Inspector General and Naval Audit Service reviewed Recovery
Act projects other than the solar and lighting project at Naval Station Norfolk. DoD
Office of the Inspector General issued Report D2010-RAM-003, “Repair Aircraft
Parking Apron at Naval Station Norfolk,” March 10, 2010, on a $43.6 million Recovery
Act–funded Navy operations and maintenance project. Naval Audit Service also issued
Report N2010-0027, “American Recovery and Reinvestment Act of 2009 ─ Naval
Station, Norfolk, VA,” May 14, 2010, on two additional Recovery Act projects.

Use of Computer-Processed Data
We relied on computer-processed data from the FBO Web site and the Federal
Procurement Data System – Next Generation. FBO is a single, government-wide point-


                                             9
of-entry for Federal Government procurement opportunities. The Federal Procurement
Data System – Next Generation is a dynamic, real-time database in which contracting
officers can update data to include new actions, modifications, and corrections. We
compared data generated by each system with the DoD Expenditure Plans, information
from NAVFAC personnel, and DoD and Navy ECIP guidance to support the audit
conclusions. We determined that the data were sufficiently reliable for the purposes of
our report.

Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division (QMAD) of the DoD Office of the Inspector General analyzed all DoD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMAD selected most audit projects
and locations using a modified Delphi technique, which allowed QMAD to quantify the
risk based on expert auditor judgment and other quantitatively developed risk indicators.
QMAD used information collected from all projects to update and improve the risk
assessment model. QMAD selected 83 projects with the highest risk rankings; auditors
chose some additional projects at the selected locations. We judgmentally selected the
Recovery Act project at Naval Station Norfolk to provide additional project coverage
across the “DoD Defense Wide-ECIP appropriation.”

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by U.S. Army Corps of Engineers.

Prior Coverage
The Government Accountability Office, the DoD Office of the Inspector General, and the
Military Departments have issued reports and memoranda discussing DoD projects
funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                            10
Under Secretary of Defense (Comptroller) Comments



                                                                                                            Final Report
                                                                                                             Reference

                                                                                                          Documents
                                                                                                          provided in
                                                                                                          addition to the
   A                     OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                                                                                          DUSD (I&E) and


   ~
                                           1100 DEFENSE PENTAGON                                          Navy comments
                                          W ..... SHINGTON DC 20301-1100
                                                                                                          were omitted
                                                                                          r E8 1 1 2011   because of length.
    COMPTROLLER
                                                                                                          Copies will be
         MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL                                           provided upon
                                                                                                          request.
         SUBJECT: DoD Respon se to American Recovery and Reinvestment Act Project~Solar
         and Lighting at Naval Station :-Iorfolk, Virginia P0764

               The above draft report addresses your review of American Recovery and
           Reinvestment Act Project-Solar and Lighting at Naval Station Norfolk, Virginia . The
           000 respo nse is attached,

                  You may contact me at                              or            for questions.



                                                                           ~J f!yd;{{/1SC~""
                                                 n:   C    CX41d/lq
                                                       Sandra V. Richardson
                                     Click to add JPEG file
                                                       Director, Resource Issues




                                                     G

                                                                    11
                       OFFICE OFTHE UNDER SECRETARY OF DEFENSE
                                        3000 DEFENSE PENTAGON
                                       WASHIN GTON. DC 20301-3000




ACQUISITION.
TECHNOI.OOY
AND LOGIS"nC:S




                                                                                NO~ 022011

      Dear

             This is the Office of the Deputy Under Secretary of Defense (Installations and
      Environment) response to the IG draft report Project No. D2009-DOOOLF-024S.007"American
      Recovery and Reinvestment Act Project-Solar and Lighting at Naval Station Norfolk, Virginia"
      dated October 8, 2010. Detailed comments on the report recommendations are enclosed.

             I appreciate the opportunity to respond to your draft report and look forward to working
      with you.

                                                 Sincerely,
                                   Click to add JPEG file
                                                  }~~
                                                  Joseph K. Sikes
                                                  Director
                                                  Facilities Energy




      Enclosure:
      As stated




                                                                 12
                  DOD IG DRAFf REPORT - DATED OCTOBER 8, 2010
                          Project No. D2009-DOOOLF-024S.007

          "American Recovery and Reinvestment Act Project-Solar and Lighting
                          at Naval Station Norfolk, Virginia"

            OFFICE OF THE DEPUTY UNDER SECRETARY OF DEFENSE
                    (INSTALLATIONS AND ENVIRONMENT)
                   COMMENTS TO THE RECOMMENDATIONS

RECOMMENDATION 1: Cancel the project (Recovery Act Project P0764, "Solar and
Lighting," at Naval Station Norfolk, Virginia] if the calculations resulting from the r~validation
effort do not meet the criteria identified in the Recovery Act, DOD Energy Conservation
Investment Program (ECIP) Plan, and DOD Energy Manager's Handbook.

ODUSD(]&E) RESPONSE : Non-concur. We consider proceeding with the project to be in the
best interests afthe Department and consistent with the intentions afthe Recovery Act ECIP
program. Recovery Act funding for EClP was provided to the Military Services based on the
combined requirements of the Recovery Act and goals of ECIP. As described in the Recovery
Act ECIP Program Plan, ECIP is generally designated for projects that reduce energy and water
                              Click to add JPEG file
consumption, but EClP also provides a critical funding source for investments in small-scale
renewable ene&gy technologies. P0764 contributes to these overall program goals by promoting
renewable energy in the Norfolk area.

ECIP policy does not require individual renewable energy projects to meet the SIR and payback
standard. To support renewable energy projects, both the 2005 and 2009 editions ofOoDl
4170.11 pennit a portion of the ECIP program to be used for renewable energy projects that are
below the SIR or payback period thresholds. This approach is also consistent with the
consolidated appropriations committee report for the ECIP program in 2009, which strongly
supports the Department'S use ofECIP to promote renewable energy resources.

RECOMMENDATION 2: Develop plans to use the funds resulting from the bid.savings and
the project's termination in accordance with Under Secretary of Defense (Comptroller)/Chief
Financial Officer memorandum, "Project Cost Variations During Execution of American
Recovery and Reinvestment Act Expenditure Plans for Infrastructure Investments," May 7, 2009,
and "Revision to Policy Regarding Project Cost Variations during Execution of American
Recovery and Reinvestment Act Expenditure Plans for Infrastructure Investments," January II ,
2010.

ODUSD(I&EI RESPONSE: Partially concur. We do not plan to direct the Navy to terminate
P0764. The Defense Components, however, are ex~uting funds derived from bid savings as
they are identified.




                                                             13
                    DOD IG DRAFr REPORT DATED OCTOBER 2010
                          Project No. D2009-DOOOLF-024S.007


                    "AMERICAN RECOVERY AND REINVESTMENT ACr
                   PROJEcr-SOLAR AND LIGHTING AT NAVA L STATION
                               NORFOLK, VlRGINIA"

                          DEP RTMENT OF NAVY COMMENTS
                          TO HIE DOD IG R ECOMM ENDATIONS


REC OMMENDATION 1:                 We recolllmend that the Commander. Naval Facilities
Engineering Command:

3.     Prepare supportin g documentation to re-validate th e discounted payback
period and SIR 011 the Energy Life-Cycle-Cost Analysis summary, and

DoN RESPONSE: Concur. Supportin g documentation ha s been updated and is
attached.
                               Click to add JPEG file
b. Condu ct a National Environmen tal Policy Act study or prepare a categorical exclusion
   the project.
0 11


DoN RESPONSE: Concur. NA VFAC Mid Atlanti c is in the process of prepari ng the
requ ired NEPA and anticipates completion by the end of November 20 10. Based on
similar projects in the geogra phi c area, a categorical excl usion is an ti cipated.




                                                           14
                                                Energy Life Cycle Cost Analysis              Summary




                                                                                                                 E P S S No:
 Discount Rate       3.0%                                  Renewable Energy Systems                                                    FY2010 Version
                                                   P0764 ­ NAVSTA Norfolk PV/Lighting ECIP                                              Aug 03, 2 0 1 0
 Activity UIC :      N62688                                                                                    Project No :                  P-0764
 Location:           N A V S T A Norfolk                                                                  Energy Category:                                9
 State/Country: VA                                                                                                 Region:                                3
                                                                                                             Economic Life;                          20
 Prepared By:                                                     Activity P O C :
 Telephone:                                                       Telephone:
 DSN                                                              DSN:
 e-mail:                                                          e-mail:


INVESTMENT COSTS:                                                                                            CREDITS;
 Construction Costs:                               $812,040                                                       Salvage Value:                     $0
 SIOH:                               5.7%           $46,286                                                              Rebate:                     $0
 Design                             10.0%              $81,204
 Total Funds Requested                             $939,530                                           E C I P Programmed Amount:           $858,326


ENERGY SAVINGS (COSTS):                         Annual Utitity            Annual             Annual            Discount                 Lite-Cycle
                            Cost/Unit              Reduction          Energy     Saved       Savings            Factor             Discounted Savings
 Electricity:               S65.52/MWh               66 M W h                  2 2 4 MBtu          $4,300        14.08                    $60,543
        Demand: *
                                            *                     *                                     $0       14.88                               $0
 Distillate Oil:            $0.00/MBtu                 0 MBtu                       0 MBtu              $0      19.41                                $0
 Residual Oil:              S0.00/MBtu                 0 MBtu                       0 MBtu              $0      33.36                                $0
 Natural G a s :            $0.00/therm                0 therm                      0 MBtu              $0      19.13                                $0
 Coal:                      $0.00/MBtu                 0 MBtu                       0 MBtu              $0       14.91                               $0
 LPG:                       $0.00/MBtu                 0   MBtu                     0 MBtu              $0       19.23                               $0
 Thermal                    S0.00/MBtu                 0   MBtu                     0 MBtu              $0       14.88                               $0
 Other                       $0.00/MBtu                0   MBtu                     0 MBtu              $0       14.88                               $0
 Water:                      $0.00/Kgal                0   Kgal
                                                                  *                                     $0       18-08                               $0
     Sewage         $0.00/Kgal                         0 Kgal
                                                                  *                                     $0       18.08                               $0
 Annual Energy Savings:                                                        224 MBTU           $4,300                           $           60,543

NON-ENERGY SAVINGS (COSTS):                                                 Year of                            Discount                Discounted
                     Item                       Savings                Occurrence                               Factor                   Savings
 Annual Recurring:                              ($2,201)                                                         14.88                      ($32,747)
 Non-Recurring Savings( Costs):
                                                                  *
 1)     Annual steam line repairs                 $0                           0                                 1.000                               $0
 2)            description                        $0                           0                                 1.000                               so
 3)                description                    $0                           0                                 1 000                               $0
 4)                description                    $0                           0                                 1.000                               50
 5)                description                    $0                           0                                 1.000                            $0
 6)              description               $0                                  0                                 1.000                            $0
      Total Discounted Non-Energy Savings:                                                                                                  ($32,747)


SUMMARY:
 Mbtu S a v e d per $ 1 , 0 0 0 Invested:                                                                            0.24
 Kgal S a v e d per $1,000 Invested:                                                                                 0.00
 Annual Savings:                                                                                                   $2,099
 Discounted Energy Savings:                                                                                        $60,543
 Discounted Non-Energy Savings:                                                                                   ($32,747)
 Total Net Discounted Savings:                                                                                                               $27,796



                                 Simple Payback                                    Savings to Investment Ratio
                                     447.64                                                    0.03

 UPDATED BY:                Name
       DATE:                Da te




                                                                                             15
